U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Lawrence Williams v. United States, No. 20-8316
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 10, 2021.
The government’s response is now due, after one extension, on August 16, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including September 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-8316
WILLIAMS, MICHAEL LAWRENCE
USA

ADAM RYAN NICHOLSON
OFFICE OF THE PUBLIC DEFENDER
525 SOUTH GRIFFIN STREET
SUITE 629
DALLAS, TX 75235
ADAM_NICHOLSON@FD.ORG

